<html>
<title> - NOMINATIONS OF HON. TARA J. O'TOOLE AND JEFFREY D. ZIENTS</title>
<body><pre>[Senate Hearing 111-838]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-838
 
       NOMINATIONS OF HON. TARA J. O'TOOLE AND JEFFREY D. ZIENTS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

 NOMINATIONS OF HON. TARA J. O'TOOLE TO BE UNDER SECRETARY FOR SCIENCE 
 AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY; AND JEFFREY D. 
 ZIENTS TO BE DEPUTY DIRECTOR FOR MANAGEMENT, OFFICE OF MANAGEMENT AND 
                                 BUDGET

                             JUNE 10, 2009

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-784 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                   Lawrence B. Novey, Senior Counsel
               F. James McGee, Professional Staff Member
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
        Amanda Wood, Minority Director for Governmental Affairs
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
































                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Levin................................................     1
    Senator Collins..............................................     3
    Senator Tester...............................................    12
    Senator Carper...............................................    14
    Senator Bennet...............................................    15
    Senator Akaka................................................    25
Prepared statements:
    Senator Lieberman.......................................... 29, 144
    Senator Collins............................................ 30, 144
    Senator Bennet...............................................   145

                               WITNESSES
                        Wednesday, June 10, 2009

Hon. Tara J. O'Toole to be Under Secretary for Science and 
  Technology, U.S. Department of Homeland Security...............     5
Jeffrey D. Zients to be Deputy Director for Management, Office of 
  Management and Budget..........................................    19

                     Alphabetical List of Witnesses

O'Toole, Hon. Tara J.:
    Testimony....................................................     5
    Prepared statement...........................................    31
    Biographical and financial information.......................    36
    Responses to pre-hearing questions...........................    56
    Letter from the Office of Government Ethics..................   104
    Responses to post-hearing questions for the Record...........   105
    Letters of Support...........................................   117
Zients, Jeffrey D.:
    Testimony....................................................    19
    Prepared statement...........................................   146
    Biographical and financial information.......................   148
    Responses to pre-hearing questions...........................   159
    Letter from the Office of Government Ethics..................   197
    Responses to post-hearing questions for the Record...........   198
    Letter of Support............................................   204


       NOMINATIONS OF HON. TARA J. O'TOOLE AND JEFFREY D. ZIENTS

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Carper, Tester, 
Bennet, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order.
    We have just been having a debate about--we know you are an 
honorable person--why the title ``Hon.'' is in front of your 
name, Dr. O'Toole. And I know it is not your choice, and I have 
been told that you were confirmed for a position during the 
Clinton Administration. Am I right?
    Dr. O'Toole. That is correct.
    Chairman Lieberman. So perhaps that is why you are not only 
honorable but officially ``Honorable.'' [Laughter.]
    Welcome to the hearing.
    Senator Levin has to leave urgently to go to a meeting that 
he has, and he wanted to make a brief statement before we 
proceed. So I will call on him at this time.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Mr. Chairman, I very much appreciate it.
    There have been a number of critics who have raised 
questions about Dr. O'Toole's writings in the past, and with 
the permission of the Chairman, I would like to submit for 
prompt response questions to those critics, and then give Dr. 
O'Toole, of course, an opportunity to respond to any comments 
that they might make.
    Chairman Lieberman. Thanks, Senator Levin. Without 
objection, we will do that.
    Senator Levin. I appreciate that. Thank you.
    Chairman Lieberman. Thank you.
    Dr. O'Toole. I would be happy to.
    Chairman Lieberman. Today we are going to consider the 
nominations of Dr. Tara O'Toole to be Under Secretary for 
Science and Technology (S&T) at the Department of Homeland 
Security (DHS) and Jeffrey Zients to be the Deputy Director for 
Management at the Office of Management and Budget (OMB).
    We are going to begin with Dr. O'Toole, who has appeared 
previously before our Committee as a very constructive and 
helpful witness on various matters that we have been following 
and who I am delighted to welcome back as the nominee for this 
important position.
    The Science and Technology Directorate at DHS is charged 
with managing our Nation's investments in homeland security 
research and development (R&D) projects. The fact is that 
Senator Collins and I, when this Committee was working on the 
legislation to create the Department of Homeland Security after 
September 11, 2001, were very impressed by the work that the 
Defense Advanced Research Projects Agency (DARPA) has done over 
the years at the Department of Defense (DOD) and wanted very 
much to create a similar center for public investments in 
research in science and technology that could enable our 
country to take much more effective and rapid leaps ahead in 
protecting homeland security.
    And the truth is, it is hard to think of a threat to our 
homeland security that is not already being better defended 
against or could not be better defended against with the 
innovative and sensible application of science and technology. 
So this is a very important part of our overall homeland 
security effort.
    The fact is that the Science and Technology Directorate had 
what I will diplomatically call ``a difficult launch'' in its 
early years, and it struggled to clarify and, in fact, at times 
execute its primary mission. As a result, unfortunately, the 
fiscal year 2007 Appropriations Act cut the Directorate's then 
$1.4 billion budget by 40 percent.
    In wake of that jolt, former Under Secretary Jay Cohen, who 
held the position that you have been nominated for now, 
resolved to build a leaner and more tightly managed 
organization that focused on serving its primary customers--the 
various agencies within DHS--and also on being fully 
transparent with Congress.
    Under Secretary Cohen, I think, did very effective work 
implementing internal controls to monitor S&T finances and 
track the progress of S&T investments. He established a 
structured strategic planning process that is designed to 
produce specific objectives and annual performance measures. 
And the good news is that there have been recent increases in 
the Directorate's budget, which are about the most tangible way 
Congress can express its growing confidence in the work that 
the Directorate has done, though I will say it is not yet back 
to where it was before that cut.
    But, obviously, a number of complex challenges remain and 
the threat to our homeland in various ways from Islamist 
terrorists, particularly, willing to strike at human targets 
and undefended targets, which will present you, of course, if 
confirmed, Dr. O'Toole, with challenges and will call upon your 
leadership to continue to build and improve this agency that is 
so vital to the Department's overall mission.
    Among the challenges that I think you will face are 
expanding investments in innovative R&D for homeland security 
and ensuring the reliability of the testing and evaluation that 
is done on large acquisition programs.
    Second is strengthening relationships between the Science 
and Technology Directorate and agencies within DHS. To these 
and the other challenges you face, Dr. O'Toole, you bring a 
wealth of experience that will serve you well in this job, if 
you are confirmed.
    For the record, I will simply say that probably as an act 
of humility by my staff on my behalf, they have left out--and I 
know Senator Collins always likes to note this--my pleasure 
that you spent time in your medical education at Yale 
University in New Haven, Connecticut.
    After practicing medicine in Baltimore for several years, 
Dr. O'Toole earned a Master of Public Health from Johns Hopkins 
University, spent 5 years as a senior analyst and project 
director with the Congressional Office of Technology 
Assessment, and from 1993 to 1997, served as the Assistant 
Secretary for Environment, Safety and Health--in a most 
honorable fashion, I might add--at the Department of Energy.
    From 1999 to 2003, she managed the Johns Hopkins Center for 
Civilian Biodefense Strategies. For the last 6 years, Dr. 
O'Toole has served as the Director and Chief Executive Officer 
at the Center for Biosecurity at the University of Pittsburgh.
    Dr. O'Toole is known as a nationally recognized expert on 
biodefense and the actions that we must take to detect, deter, 
and react to either a biological terrorist attack or a pandemic 
event.
    She is a former chair of the board of the American 
Federation of American Scientists and has participated in major 
studies or advisory panels at the National Science Foundation, 
the Department of Defense, the Department of Health and Human 
Services, and the Department of Homeland Security.
    This is a most impressive background that you bring as a 
nominee, and I welcome your selection. Of course, all this does 
not say that you are beyond question, and therefore, I look 
forward to the question-and-answer period.
    Dr. O'Toole. Thank you.
    Chairman Lieberman. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    I join the Chairman in welcoming Tara O'Toole to the 
Committee today. As the Chairman has pointed out, Dr. O'Toole 
has testified before us previously and has also lent her 
expertise to us when we have called her informally for advice.
    The Chairman has already illustrated that Dr. O'Toole has 
an extensive medical, public health, and biodefense career. I 
would point out that she was one of the original members of the 
Johns Hopkins Center for Civilian Biodefense Strategies and 
served as its director from 2001 to 2003.
    When the Department of Homeland Security was established, 
Congress recognized the important role that technology must 
play in securing our Nation; therefore, we created a Science 
and Technology Directorate to undertake research and 
development activities. As the Chairman has indicated, the 
Directorate got off to a rough start, but in recent years has 
made some real progress. Today, the Department is developing 
technologies on a variety of fronts, including biological, 
chemical and explosives detection, communications 
interoperability, and passenger and cargo screening.
    Technological advances at the ports of entry are already 
helping to identify individuals who are using fraudulent travel 
documents. This technology allows the Department to better 
perform its mission of protecting the American people while 
still facilitating the legitimate flow of people and commerce. 
Our goal is always to let our friends in while keeping our 
enemies out.
    The Department's relationship with the University of Maine 
and other research universities is helping to improve our 
homeland security. An example of the great promise of advanced 
technology is the composite-material cargo container prototype 
under development at the University of Maine. A composite 
shipping container with embedded sensors could improve the 
security and integrity of the supply chain while offering 
shippers a lighter and longer-lasting alternative to 
traditional steel containers. I mention this as an example of 
the promise of technology.
    Research and development of new technologies at the 
Department carry an annual multi-billion-dollar price tag. To 
ensure that these dollars are well spent, the Science and 
Technology Directorate must rigorously test and evaluate 
technologies before procurement decisions are made. Better 
engagement by the Directorate's testing and evaluation office 
in the Department's acquisition programs could help avoid 
problems such as those that have been experienced in the SBInet 
program.
    The next Under Secretary for Science and Technology will 
also need to align DHS research and development priorities with 
the greatest security vulnerabilities that our Nation faces and 
ensure close coordination with DHS operational components and 
other Federal, State, and local partners. I look forward to 
hearing how Dr. O'Toole would address these challenges, if 
confirmed.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Let me now say for the record that Dr. O'Toole has filed 
responses to a biographical and financial questionnaire, 
answered pre-hearing questions submitted by the Committee, and 
had her financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record, with the exception of the 
financial data, which are on file and available for public 
inspection in the Committee offices.
    Dr. O'Toole, as I think you know, our Committee rules 
require that all witnesses at nomination hearings give their 
testimony under oath, so I would ask you to please stand and 
raise your right hand. Do you swear that the testimony that you 
are about to give this Committee is the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Dr. O'Toole. I do.
    Chairman Lieberman. Thank you very much. Please be seated.
    We would now welcome your opening statement and 
introduction, if you choose, of any family and friends that are 
with you today.

TESTIMONY OF HON. TARA J. O'TOOLE \1\ TO BE UNDER SECRETARY FOR 
  SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. O'Toole. Thank you, Mr. Chairman, Senator Collins, and 
distinguished Members of the Committee. It is a great honor to 
appear before you today as President Obama's nominee for the 
position of Under Secretary of Homeland Security. I am greatly 
humbled by this privilege of being chosen by the President and 
by Secretary Napolitano to be nominated for this important 
post. I am also honored to appear before this Committee, which 
has done so much for so long to provide distinguished 
leadership in the complicated, ongoing efforts to address the 
Nation's many homeland security challenges.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. O'Toole appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    At this point, I would like to recognize my partner, Dr. 
Liza Solomon, for her unstinting support; and my niece, Sarah 
Hallonquist, who is just beginning her government career. I 
would also like to thank the many friends and colleagues who 
are here today for all they have done to enrich my life.
    Mr. Chairman, as you noted in your opening remarks, when 
this Committee wrote the Homeland Security Act of 2002, you 
recognized that the application of science and technology would 
be fundamental to the success of the Department. The history of 
the Committee since then shows that you have repeatedly 
returned to this topic of how science and technology might be 
used to advance the goals of the Department as well as national 
homeland security priorities.
    Similarly, Secretary Napolitano has identified the pursuit 
of science and technology in service to the Department of 
Homeland Security missions as being among her top priorities. 
She noted in congressional testimony, perhaps echoing you, Mr. 
Chairman, or you, Senator Collins, she said, ``It is difficult 
to think of an area of DHS operations where a greater use of 
cutting-edge technology would not improve capabilities.''
    And, indeed, mobilizing science and invention to solve 
practical problems has been an American hallmark since Ben 
Franklin flew his kite in a lightning storm. And I am very 
excited and grateful for the opportunity to continue this 
tradition.
    As you noted, I am trained as a physician. I have practiced 
medicine, and I have served in government in the Office of 
Technology Assessment and as an Assistant Secretary of Energy 
for Environment, Safety and Health. And for the past decade, I 
have helped found and led two university-based think tanks 
devoted to biosecurity.
    Over the course of my career in universities, government, 
and non-governmental organizations, my work has encompassed the 
study and management of a broad range of ``threats'' and 
focused particularly on risks associated with nuclear and 
biological weapons, radiation, and toxic chemicals, and on what 
could go wrong in complex, human-built systems.
    As this Committee knows well, the responsibilities of the 
DHS Directorate of Science and Technology cover a broad 
spectrum of technical and operational problems. While I do not 
claim to have deep expertise in all of these areas, I am 
confident that my background and experience equip me to lead 
the Directorate and to serve the research and development needs 
of the Department and of the country.
    Through my own work on biodefense and nuclear safety, I am 
convinced that the skills, expertise, and willing collaboration 
of State, local, and tribal governments, first responders, and 
the private sector are essential to the Federal Government's 
capacity to execute a coordinated, fully functioning homeland 
security strategy. This is, I realize, a view which this 
Committee has long championed. And if confirmed, I commit to 
working closely with the Committee to identify, answer, and 
manage the science and technology needs of the Department and 
to serve the strategic homeland security R&D priorities of the 
country as a whole.
    Should I have the privilege of being confirmed to this 
position, I would pursue four priorities.
    First, I will continue to strengthen the relationships 
between the Science and Technology Directorate and the 
Department's operational components, including first 
responders. It has been said, actually by the DARPA, that 
transitioning technology--that is, moving technology from 
research into use--is a contact sport. It is done by personal 
contacts between people.
    As you noted, under the leadership of the former Under 
Secretary, Admiral Jay Cohen, the S&T Directorate established 
the Integrated Project Team process to create these essential 
connections. If confirmed, I will work to expand and deepen the 
contacts and the working relationships between the actual users 
of technology and the operation components of DHS and the R&D 
professionals, and to integrate a disciplined process of 
technology development into the Department's acquisition 
process.
    Second, if confirmed, I would modestly increase the portion 
of the S&T budget devoted to longer-term, highly innovative 
projects which, if successful, could change the playing field 
or provide solutions to particularly difficult high-priority 
problems.
    While I believe that DHS's immediate operational needs 
continue to demand significant investments in near-term 
technology development, I believe that some of the problems 
confronting the Department may require fundamental discoveries 
and technical achievements.
    Third, if confirmed, I will work with this Committee and 
with my colleagues in DHS to forge a strategic 5-year approach 
to homeland security R&D, both within the Directorate and 
across the Department. I believe the ongoing Quadrennial 
Homeland Security Review (QHSR), which the Secretary has 
underway, will provide an essential foundation for such a 
strategy, and I hope to become actively engaged in the QHSR, if 
confirmed.
    Fourth, should I be confirmed, I would seek to focus more 
resources on how we might make the American people and our 
communities more resilient to disasters, whether natural or 
man-made. I believe we can use science and technology to assist 
the American people as individuals, as employers, or as 
employees, as volunteers, and as community members to help 
prevent and better prepare for the unexpected and to construct 
more robust public-private sector collaborations and foster 
more rapid recoveries from calamities.
    The consequences of path-breaking science and of new 
technologies are famously unpredictable. I am here today in 
part because of the surprise launch of the Soviet satellite 
Sputnik in 1957. The shock of Sputnik spurred U.S. investments 
in science education, which brought teachers, science fairs, 
and advanced placement science courses to my small public high 
school in Massachusetts--New England--and essentially launched 
me into college and medical school.
    In the end, Sputnik catalyzed the U.S. triumphs in space 
and a new era of achievement in American science and 
technology. It is and has long been my conviction that science 
and technology wedded to American ingenuity can be applied to 
help us better understand, prevent, and if necessary, respond 
to terrorist attacks and natural disasters. I would be honored 
to be a part of such an effort as Under Secretary for Science 
and Technology.
    If confirmed, I am committed to working with this Committee 
to help create a strong and successful Department of Homeland 
Security and to serve the interests of the United States and 
its people.
    I am, of course, happy to answer any questions you might 
have.
    Chairman Lieberman. Thanks very much, Dr. O'Toole. That was 
really an excellent, very thoughtful opening statement, and I 
will come back and begin my questioning by asking you about a 
few of the things you said, which are thought provoking. But 
let me begin with the standard questions we ask of all 
nominees.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Dr. O'Toole. No, sir.
    Chairman Lieberman. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Dr. O'Toole. No, I do not.
    Chairman Lieberman. And, finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed?
    Dr. O'Toole. Yes, I do.
    Chairman Lieberman. I appreciate that. Let us proceed now 
with the first round of questions that are limited to 7 minutes 
each.
    I am going to depart from what I was going to begin to ask 
you because your opening statement sort of led me to refine it 
a little bit. I am very interested in drawing you out on two of 
your four priorities. The second one was to consider 
investments in long-term innovative projects that may assist in 
our efforts to defend against, to prevent, or to respond to 
high-priority problems. Talk a little more about what you have 
in mind and what kinds of models there are that you have in 
mind for previous governmental involvement of this kind.
    Dr. O'Toole. Well, the model I have in mind is DARPA's, 
quite frankly. They have been extremely successful in taking on 
very formidable challenges and working away at them over a 
period of years long before their customers--that would be the 
military services--have identified a particular technology, 
such as stealth aircraft, as something they need to fight the 
wars of today or tomorrow.
    I think there are many such challenges in the Department of 
Homeland Security, and indeed, the problem may be selecting one 
or two that we could afford to pursue. Let me give you one 
example.
    I was visiting with Mr. Ahern, the head of Customs and 
Border Protection, and we were talking about the threat of 
these unmanned submersibles bringing large quantities of drugs 
into the shores of Mexico. If we could detect and interdict 
those vehicles, which are getting increasingly sophisticated 
and numerous, we could turn off the drug trade before these 
drugs are distributed to many people who are a lot harder to 
track down and before these drugs get to the Mexican shores, so 
we could actually aid in the stability of Mexico in addition to 
getting rid of a big problem and securing our own borders.
    I think that is a huge technological challenge, but it is a 
challenge which, if met, would take that problem off the table. 
So if you can take the problem off the table as opposed to 
getting better and better at incrementally diminishing the 
problem, that would be very attractive to me.
    Chairman Lieberman. Good example. Very hopeful. And the 
fourth one was more resources to assist the American people and 
our government to achieve resiliency. That brought to mind--I 
recently met with John Brennan, the Assistant to the President 
for Homeland Security and Counterterrorism. And on the chart of 
the National Security Council, there is now a box, among 
several boxes, that is called ``Resiliency.'' So what are you 
thinking of?
    Dr. O'Toole. Well, I think social science has actually been 
very useful in helping us to design strategies and technologies 
that could, for example, help human agents detect wrongdoers or 
people who are acting suspiciously. I think we can also use 
social science to help us better understand how to improve 
resilience. I think there are endless examples in the context 
of past disasters, including September 11, 2001, including 
Hurricane Katrina, of individuals and groups of individuals and 
of organizations, including businesses, doing great things, 
sometimes spontaneously, sometimes with prior planning. I think 
that truly protecting homeland security is going to require 
that we take a much more strategic, thoughtful, and purposeful 
approach to organizing that kind of ingenuity and collaboration 
and enabling it in new ways.
    So, for example, how could we form more robust public-
private partnerships between businesses and State or city 
government to get better prepared?
    Chairman Lieberman. So here you are thinking really 
primarily of social science research.
    Dr. O'Toole. Yes.
    Chairman Lieberman. Very interesting and, again, hopeful.
    Let me give you an opportunity to respond on the record to 
the matter that I believe Senator Levin was referring to. I 
have heard and seen some of the criticism, which to me seems, I 
will indicate a bias here, like an academic debate. I say that 
with respect. [Laughter.]
    But, in other words, you have had some pretty aggressive 
critics, particularly of the two exercises you played an 
important role in organizing--Dark Winter and Atlantic Storm--
which explored, generally speaking, our country's preparedness 
to respond to a biological attack, specifically a smallpox 
attack, as I recall. And there has been some criticism here 
that--I am going to do it generally, and maybe not do it 
justice--you were offering too severe a portrayal of the 
disease outcome and spread and in some sense that your science 
was not sound; and if I can really express what I think is the 
sort of policy approach behind it, that you were drawing the 
country through these exercises into too strong a response to 
the threat of biological attack and, therefore, money was being 
allocated to those purposes as opposed to other public health 
purposes where it was more needed.
    Give us a response to that in general, if you would.
    Dr. O'Toole. Well, first of all, thank you for the 
opportunity to do so, Senator. As you say, Dark Winter and 
Atlantic Storm were both scenarios positing a smallpox attack 
on the American people, a covert attack. I believe the question 
that Senator Levin is concerned with and, indeed, the question 
that the critics--there is actually one critic, very 
persistent--have fastened on is the secondary transmission rate 
that we assumed in the scenario.
    Chairman Lieberman. And just define it for us. What is the 
secondary transmission rate?
    Dr. O'Toole. OK. That is the number--once you have an 
attack and you have infected a certain number of victims, how 
many subsequent infections will those initial unfortunates 
cause? And we chose the number 10.
    Now, the transmission rate of a disease is very contextual. 
It is not a biological factor. It has a lot to do with the 
context in which the disease occurs--the number of people 
exposed, the number of people in the population who are 
susceptible, the number of contacts the exposed had with other 
people, the time of the year, etc.
    What we did in Dark Winter is we looked at the available 
empirical data of the number of people who got secondary 
smallpox in the context of those importations of smallpox that 
occurred in Europe in the 1960s just before smallpox was 
eradicated. Even though it was mostly gone from Europe, you 
would still have occasions where people would come back from 
other countries and bring smallpox into the country.
    We looked at instances where, first of all, there was some 
transmission, because at that point in time doctors were pretty 
good at recognizing smallpox, isolating people, and it never 
went anywhere. We looked only at winter events because we 
thought a thinking enemy would pick the season in which 
smallpox is most contagious. That virus lives longer and more 
robustly in cool, dry weather. And that left us with six 
instances of transmission of smallpox after importation. And 
the data--these are not assumptions; these are empirical data 
from those cases--showed that the secondary transmission rate 
was between 9.3 and 17.3, with a confidence interval of 95 
percent.
    Now, in the Dark Winter story, it was happening in June 
2001, at a time when 42 percent of the American population had 
never been vaccinated, and at a time when most doctors have 
never seen a case of smallpox. And, of course, prior to 
September 11, 2001, we were not thinking about smallpox and 
their differential diagnosis.
    So we chose what we thought was a very reasonable and 
conservative transmission rate of 10, and we were not alone in 
this. There was another article in Nature, another peer-
reviewed magazine, in 2001 which thought that the secondary 
transmission rate would be somewhere between 4 to 12 because of 
the difficulty of recognizing these cases before they had gone 
on to contact and infect others.
    So I do stand by the assumptions. They are assumptions, but 
as I said, they are based on empirical data. And as you say, 
this is something of an academic debate. The transmission rate 
one way or another does not change the scenario in any way. 
And, furthermore, I make no apologies for my advocacy of the 
need for a stronger biodefense. I do not agree that we have 
done too much in biodefense. As you know, I think there is much 
left to be done.
    Chairman Lieberman. Thanks. That was an excellent response. 
Of course, I agree with you, and I would just say 
parenthetically, because I am way over my time, the Graham-
Talent Commission on the Prevention of Weapons of Mass 
Destruction (WMD) Proliferation and Terrorism actually 
focused--this was last year--on the threat of biological attack 
as the one that we need to urgently raise our defenses against 
because it is more likely for various reasons than the other 
forms of a potential WMD attack. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Let me pick up 
where you left off.
    Dr. O'Toole, as you know, this Committee has done a great 
deal of work on bioterrorism, holding several hearings, and you 
have contributed greatly to those. Last year, we did look at 
the safety of biological labs, and we heard testimony from the 
Commission on the Prevention of WMD Proliferation and 
Terrorism, which specifically recommended that we take action 
to improve the security of biological labs.
    In addition, the Government Accountability Ofice (GAO) 
testified that, in response to the global spread of emerging 
infectious diseases and the threat of bioterrorism, high-
containment biosafety laboratories have been proliferating in 
the United States and that more needs to be done to ensure 
their safety.
    Given your expertise, I am alarmed then at a statement that 
you wrote last year in a scientific journal in which you said, 
``The notion that we can somehow prevent a bioattack by locking 
up pathogens in research laboratories is ridiculous.''
    Could you explain what you meant and if you disagree with 
the Commission and the GAO's assessment that we do need to 
tighten security of labs?
    Dr. O'Toole. Well, first of all, Senator, thank you for the 
opportunity to clarify the record and explain my rather 
inartful single-sentence quote in what was a long conversation 
with that reporter. And thank you, too, for your support and 
pursuit of the WMD Commission recommendations, which I regard 
as very important. I am actually very proud to have letters of 
support from both of the Senators of that Commission.
    I strongly support improved and more formal biosafety and 
biosecurity approaches, particularly for high-containment labs, 
and, indeed, for those BSL4 labs, the highest level of 
containment, I think it would make sense to have a 
certification and training program in addition to a stronger 
regime.
    I have advocated stronger biosafety since the early 1990s 
when I was overseeing safety at the Department of Energy 
laboratories. The journal, which I co-edit, was one of the very 
first to require a security review from all reviewers of the 
authors to make sure that there was not dual-use information in 
the articles that we published. And we also at the center held 
what I think was the first workshop on safety and security, and 
we called in most of the directors from the BSL4 labs in the 
United States to that workshop.
    So I very much support stronger biosafety, and I agree 
completely with the Commission's recommendation that the 
current regime of dealing with select agents and safety ought 
to be reviewed. I also agree with the statement of the 
Commission that we need to proceed while taking care that we do 
not impede or otherwise unnecessarily burden legitimate 
research.
    You may know that during the H1N1 outbreak, Mexico 
initially sent samples to Canada, not to the Centers for 
Disease Control and Prevention (CDC), because of the difficulty 
of transporting these legitimate research samples into the 
United States due to the Select Agent rule. So I do worry about 
that. I think biology is going to be not only critical for 
biodefense but for economics. So that is my concern.
    Senator Collins. There are a considerable number of 
privately funded BSL3 labs in this country that are permitted 
to work on a number of dangerous pathogens that could result in 
a serious biological event, yet these labs are not required to 
inform any Federal agency of their activities.
    What is your view of the need to at least require 
laboratories operating at the BSL3 level to identify themselves 
through a Federal registration process so that we at least know 
where these pathogens are?
    Dr. O'Toole. Well, I think that is something worth 
considering, and I would be pleased to work with you on that. 
There are many BSL3 labs, not just in private hands but at 
hospitals and universities and so on and so forth. So the 
practicality of doing that and the benefit of doing that would 
be worth examining. But it is not unreasonable.
    Senator Collins. You had a controversy in your previous 
confirmation that, just for the record because it is likely to 
come up at some point again, I would just like to give you an 
opportunity to respond to. At that time questions were raised 
regarding your involvement in an academic group that once had 
been called the ``Marxist Feminist Group 1.'' Could you 
explain, since that obviously is a very loaded title for this 
group, your involvement with this group?
    Dr. O'Toole. Thank you again for the opportunity, Senator, 
to clarify the record. I belonged to this reading group, which 
was called ``Northeast Feminist Scholars'' in my time, which 
was a group of academics, again, many of whom were economists, 
and they met three times a year for a weekend, and we discussed 
topics such as aging parents, math phobia among women, books 
that we read, international events, and so forth. It did not do 
any political advocacy. It was not Marxist in any way, shape, 
or form. But that had been the title back in--this is actually 
a very longstanding group--the 1960s and 1970s. And during my 
last nomination, in 1993, when that came to light, some of the 
Senators became concerned. There was a full Federal Bureau of 
Investigation (FBI) investigation. The White House took 
affidavits from Members of the Committee, and I was passed out 
of the Committee with only two people voting no and confirmed, 
as you know.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you. We have not had mention of 
Karl Marx here in this Committee for quite a long time. 
[Laughter.]
    Senator Collins. Just trying to keep things interesting, 
Mr. Chairman.
    Chairman Lieberman. That was very interesting. Thank you. 
Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. And I want to 
thank you, Dr. O'Toole, for putting yourself up for public 
service again. I appreciate that very much.
    I am going to talk a little less globally, more 
specifically, as I talked to you before the hearing, and I do 
not have any quotes. I would give you the opportunity to make 
one today. This deals with the Plum Island Animal Disease 
Center located in Plum Island, off Long Island, New York. You 
are probably intimately familiar with it, but it does research 
with contagious diseases that are applicable to animals, 
including foot-and-mouth disease (FMD), which is a very 
contagious disease among animals.
    I would state that a new facility has to be built. There 
are no ifs, ands, or buts about that. There is talk about 
building the new facility, not talk about the new facility but 
actually, I believe, the decision has been made to build a new 
facility at Kansas State University in Manhattan, Kansas, and I 
have got nothing against Kansas State. I am sure it is a great 
university.
    But the Environmental Impact Statement (EIS) on this 
national bio and agro defense facility that was done, states 
this--and there were five sites chosen, and it applies to all 
five except for Plum Island. The EIS states this: ``The 
Manhattan campus site provides a significant opportunity for 
the spread of virus vectors and infected wildlife.'' It also 
said, ``For this site, as with all the other sites, except Plum 
Island, there was a potential for viral pathogens to be 
transported significant distances by the wind.'' It went on to 
say that the location of the Plum Island provides a barrier 
against spread of these viruses.
    Now, I understand that there are some advantages of being 
connected with the university. I think there are some 
advantages of being in the center of the United States. I think 
it is probably easier to get to in Manhattan, Kansas, than it 
would be on Plum Island.
    From a common-sense perspective, if we are talking about a 
transmission rate of highly contagious diseases as it applies 
to our animal industry, would it not make better sense, would 
it not make more common sense just to rebuild that facility on 
Plum Island because it does not have the potential to spread as 
it would somewhere in the center of the United States?
    Dr. O'Toole. Thank you, Senator. This is obviously a very 
important question, as you point out, and as is my 
understanding, the current facility is too old to continue, and 
we have to build a modern facility equipped with modern 
bioengineering capabilities.
    I believe, first of all, that we can build such a facility 
in a way that contains anything with which the scientists work 
with very high confidence. There should be no releases from 
these facilities. As Senator Collins has pointed out, there are 
many high-containment labs already working, not just here but 
around the world. So that is the first thing. Wherever it is 
built, it has to be secure.
    Second, it is my understanding that the site selection 
criteria included very prominently the nearby location of 
veterinary and agricultural schools so that the research and, 
indeed, the people power available to the facility would be 
very robust and that Kansas State came out ahead on that score.
    I understand there is a GAO report looking into the very 
issue that you identified regarding the FMD problem, and I will 
be examining that very closely.
    It is my understanding that, according to the World 
Organization for Animal Health (OIE), regardless of whether 
there was a FMD release--which I do not think should happen--
from Plum Island or from the mainland, all of the United States 
would lose its FMD status. So in terms of the economic 
implications, which is not what you are asking, I realize, it 
would be the same regardless of whether it was a release from 
Plum Island or from the mainland sites.
    Senator Tester. Just to follow up on that, I would say that 
I understand the loss of FMD status, if it was a release, 
regardless of where it happened in the United States. I am 
talking about the actual spread of it. And I can tell you that 
we may be living in a new age, but humans still can err. There 
were releases as recent as 2007 from the United Kingdom. I do 
not know if that facility was rated at the level this one is 
going to be or not. I think it is great to be affiliated with 
the university. That is where the action is--the agricultural 
school, the veterinary medicine school, all that stuff. But 
this is 2009. Distances are not that big of a deal when we are 
dealing with petri dishes, mainly, I would guess. We are not 
dealing with live animals walking around for the most part.
    I understand that it was your own EIS from your agency, I 
believe, that pointed out the problems with Manhattan, or any 
other place, versus Plum Island. Plum Island has been around 
forever. I just think that we need to look at it from not the 
best-case scenario but from a worst-case scenario if this were 
to get out in the center of the United States. That is all. It 
could literally do some real bad things to our food supply, the 
livestock industry, and the list goes on.
    So, with that, I ask you to take a hard look at it, use the 
best common sense you have before we move forward. And like I 
said before, I know this is probably a lot of money for Kansas, 
but if this thing ever gets out, we have major problems.
    Dr. O'Toole. Senator, I will definitely take a hard look at 
that and get back to you.
    Senator Tester. Thank you.
    Chairman Lieberman. Thanks very much, Senator Tester. 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks very much. Dr. O'Toole, welcome. It 
is good to see you.
    Dr. O'Toole. Thank you.
    Senator Carper. Thank you for your service to our country 
and for your willingness to serve in this capacity as well.
    Like much of the rest of our country, Delaware, where I am 
from, has many critical infrastructure sites that require a 
variety of security protocols to safeguard those facilities. 
And it seems to me that resiliency plays a very important role 
in securing sensitive sites from harm and in assisting with our 
ability to prepare for and to recover from a disaster of really 
any type or scale.
    What I would like to ask you about here today is what your 
thoughts are in integrating resiliency into the Science and 
Technology Directorate's critical infrastructure protection 
mission? And if you agree with this importance, how would you 
integrate it?
    Dr. O'Toole. I agree with you, Senator. I think resiliency 
is extremely important, and I noted in my opening remarks that 
one of the four priorities that I would pursue would be more of 
a focus on how we can build resiliency among individuals, 
communities, and between the public and the private sector.
    It may be that one place to start would be to begin with 
critical infrastructures and to take them as a model and to 
study how you could take a critical infrastructure and make it 
more resilient so that if it went down, it could recover very 
quickly. I can think of a couple of infrastructures in your 
State where that might make a lot of sense. And I do think that 
a more intense focus on recovery and on preparedness so that we 
are further along when catastrophe hits is warranted at this 
point.
    Senator Carper. All right. Let me ask a question I should 
have asked you right at the top, but why would you like to have 
the opportunity to serve in this position? You may have said 
that already in your statement, but I missed it.
    Dr. O'Toole. I believe in public service. I think it is 
both a privilege and a duty. I think I have the background and 
the experience that at least gives me a good chance of being 
able to perform these duties adequately. And, frankly, I think 
it sounds like an enormously fascinating set of tasks that I 
eagerly look forward to. And I am very impressed with Secretary 
Napolitano and the President and very much appreciate the honor 
of having the opportunity to work for the country.
    Senator Carper. All right. Good.
    Speaking of the President, the President recently announced 
the consolidation of the National Security Council and the 
Homeland Security Council into one organizational structure. 
Some of the critics of the Homeland Security Council said that 
its functions were duplicative, suggested that it contributed 
to a significant amount of bureaucracy within the interagency 
process, especially when it came to policymaking. And some of 
those critics said that combining these two entities will 
dilute the homeland mission--and you may or may not be familiar 
with this, but if you are, I would appreciate your response. If 
you have any thoughts, what are your thoughts on these 
critiques? And while it might be too early to tell, what 
benefits might you see coming from this new streamlining? And 
if it is not a question that you are prepared to answer here 
today, if you can answer on the record, I would appreciate it.
    Dr. O'Toole. Well, Senator, I have been concentrating on 
Homeland Security and the S&T Directorate for the past few 
weeks. I am not familiar with what Mr. Brennan has in mind. I 
believe that the President is very committed to homeland 
security and that Mr. Brennan is, too, but I would be happy to 
comment further for the record. I just do not have much more to 
say.
    Senator Carper. If you would do that, that would be great. 
Thanks so much.
    Dr. O'Toole. Thank you.
    Chairman Lieberman. Thanks very much, Senator Carper. Thank 
you, Dr. O'Toole. I think we are actually going to go on to the 
next nominee because a vote has been called for later this 
morning, and we want to complete this hearing. I think we have 
covered the important questions. You have survived the 
exhaustive pre-hearing inquiries of this Committee. And if 
there are any additional questions, including the ones that 
Senator Levin mentioned, we are going to ask that they be 
submitted by the close of business tomorrow. And then we will 
proceed to consider your nomination in the Committee as soon as 
you are able to answer those questions.
    But with that, we thank you very much. Do you have anything 
you would like to say in conclusion?
    Dr. O'Toole. Just thank you very much.
    Chairman Lieberman. Thank you. All the best.
    Dr. O'Toole. Thank you.
    Chairman Lieberman. This part of the hearing is concluded, 
and now we will call on Mr. Zients.
    Why don't we begin this second part of the hearing as soon 
as Senator Carper gets through extending the greetings of the 
Committee.
    Senator Collins. He is hoping there is some Delaware voters 
there.
    Chairman Lieberman. I know that Senator Bennet is coming to 
introduce you, which we appreciate, but to expedite, we will go 
ahead with our opening statements, and we will call on him.
    We are going to consider President Obama's nomination of 
Jeffrey Zients to be Deputy Director for the Office of 
Management and Budget.
    Senator Bennet, I know you are a new Senator, but you are a 
busy Senator, and your response time in getting here was so 
rapid that I am going to honor it by allowing you to introduce 
the nominee and then proceed back to your normal business.

                OPENING STATEMENT SENATOR BENNET

    Senator Bennet. Thank you, Mr. Chairman. I apologize for 
being late. I thought I was going to be early because I was so 
excited to have the chance to introduce Jeff Zients to you and 
to the Ranking Member.
    Mr. Chairman, Senator Collins, thank you for giving me the 
opportunity to introduce Mr. Zients to serve as the Deputy 
Director for Management at OMB. He will also serve as our 
Nation's first ever Chief Performance Officer. I would like to 
take this opportunity to welcome him and his family to the 
hearing.
    If confirmed, Mr. Zients will coordinate the President's 
efforts to make our government more efficient and accountable 
by identifying wasteful spending and eliminating initiatives 
that do not provide sufficient benefit to the American taxpayer 
for the amount we are investing in them. He will also work to 
improve how we measure the effectiveness of government 
programs.
    It will not be easy. Just the sheer size and complexity of 
the Federal Government and the entrenched interests that often 
fight to protect certain programs make this kind of work 
treacherous and too often thankless. But I commend the 
President for prioritizing better governance, and I fully agree 
that somebody needs to be tasked with performing this role.
    Given the enormity of this task, the President could not 
have found someone better suited for the job than Mr. Zients. 
As an expert in financial management and business strategy, he 
has the intellect, creativity, and tenacity to examine complex 
problems, implement solutions, and produce real results for the 
American people.
    As my friend for nearly 30 years, I know he has the ability 
to exercise sound judgment and the character and integrity to 
do what is right.
    In his mid-twenties, he joined the Advisory Board where he 
worked closely with America's top companies to become more 
innovative and efficient. Within 3 years, he became a partner 
in the company. He also helped create the Corporate Executive 
Board, which assists companies across various industries in 
financial management and business re-engineering. He played an 
instrumental role in taking both of these companies public, all 
the while creating hundreds of jobs in the Washington, DC, 
area.
    Mr. Zients currently serves as the managing partner of 
Portfolio Logic, an investment firm that he founded several 
years ago. He is also the Chairman of Pediatric Services of 
America, the Nation's largest provider of pediatric nurse care.
    Outside of the corporate world, he has worked to create 
better opportunities for young adults throughout Washington, 
DC, and Baltimore. He established and currently oversees a 
nonprofit organization that works with local companies to 
provide paid internships, mentoring opportunities, and job-
training initiatives.
    As we all know, he will be joining the President's team 
during the worst economic crisis in generations. At the same 
time, our deficits and long-term debt are on an unsustainable 
course. If we want to lay the framework for long-term economic 
growth, we need to ensure that every penny of Federal spending 
is necessary and targeted. His years of experience in financial 
management and his ability to think way outside the box will be 
instrumental to the President's efforts to make our government 
more accountable and efficient. His private sector business 
savvy will provide the perfect lens through which to examine 
the effectiveness of many public sector initiatives. By making 
our Federal agencies more efficient and accountable, he will 
play an important role in helping restore the American people's 
faith in our government. I look forward to working with my old 
friend as he begins this important job.
    Mr. Chairman, I gladly introduce and recommend with the 
strongest recommendation I can, Mr. Zients, to the Committee 
for this new and important role. Thank you very much for 
allowing me to introduce my friend.
    Chairman Lieberman. Thanks, Senator Bennet. That was an 
excellent statement and obviously heartfelt. It means a lot to 
the Committee, so we thank you for coming over, and you are 
excused.
    Senator Bennet. Thank you.
    Chairman Lieberman. If you would like to be excused.
    Senator Bennet. Good luck.
    Chairman Lieberman. Thank you.
    Senator Bennet's introduction was so strong that it enables 
me to abbreviate my opening statement, but I will say this: 
Since its creation, a common criticism of the Office of 
Management Budget is that its leadership, no matter what party 
is in charge of the White House, too often has focused on the 
``B'' at the expense of the ``M''--on budget as opposed to 
management. And that should not be the case. The two obviously 
go hand in hand. If a program is not doing well with the ``M,'' 
it is likely to have problems with the ``B'' as well, and that 
means the taxpayers are not getting their money's worth.
    I am very pleased that President Obama has made the drive 
toward management excellence a priority across the government 
and, as Senator Bennet just indicated, has stated that the 
Deputy Director for Management at OMB--that is, the position 
for which Jeffrey Zients has been nominated--will also serve as 
the first Chief Performance Officer of the Government of the 
United States.
    Mr. Zients will have oversight of four statutory offices 
with far-reaching and very important mandates: The Office of 
Information and Regulatory Affairs, which will give you the 
enviable task of overseeing Cass Sunstein; the Office of 
Federal Procurement Policy; the Office of E-Government and 
Information Technology; and the Office of Federal Financial 
Management.
    I am going to put the rest of my statement in the record 
because I am going to raise some questions along the lines of 
the matters that I was next going to reference in my opening 
statement.\1\ Bottom line, as Senator Bennet has indicated, Mr. 
Zients has 20 years of business experience as a chief executive 
officer (CEO), management consultant, and entrepreneur. He has 
spent most of his career devising ways to improve governance, 
organization, management, efficiencies, financial systems of 
companies, all of which we will now look to him, if confirmed, 
to bring to the Government of the United States of America.
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Lieberman appears in the 
Appendix on page 144.
---------------------------------------------------------------------------
    So again, I welcome you, Mr. Zients, and I look forward to 
your statement and to the question-and-answer period.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. I am going to 
follow your lead and insert my statement for the record as well 
since we have only a short time before the vote begins.\1\ Let 
me, however, just highlight one issue that I think is extremely 
important.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Collins appears in the 
Appendix on page 144.
---------------------------------------------------------------------------
    A major OMB responsibility is the oversight of 
approximately $71 billion in spending on information technology 
(IT) investments. It is simply unacceptable that the Federal 
agencies have identified approximately 450 IT projects, 
totaling more than $26 billion, as poorly planned, poorly 
performing, or both.
    Senator Carper and I have introduced a bill, which this 
Committee has favorably reported, that would improve agency 
performance and oversight of Federal IT projects, and that is 
going to be a key responsibility for Mr. Zients, if he is 
confirmed, to work to prevent these kinds of enormous cost 
overruns, schedule problems, and performance difficulties that 
have plagued IT projects all across the government. And this is 
an area where I think that the OMB has not been aggressive 
enough.
    Finally, I just want to reinforce the Chairman's point that 
OMB has a two-pronged mission. It is not just budget. It is 
management as well, and that is equally important.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. Good 
points.
    I will say for the record that Jeff Zients has filed 
responses to the questionnaires, answered pre-hearing 
questions, and had his financial statements reviewed by the 
Office of Government Ethics. Without objection, this 
information will be made part of the record, with the exception 
of the financial data, which are available for public 
inspection in the Committee offices.
    Mr. Zients, I would ask you now, as the Committee rules 
require, to please stand and raise your right hand. Do you 
swear that the testimony you are about to give is the truth, 
the whole truth, and nothing but the truth, so help you, God?
    Mr. Zients. I do.
    Chairman Lieberman. Thank you, and please be seated. We 
would welcome your opening statement and, if it does not take 
too long, an introduction of the many family members. You are 
welcome to introduce anyone you want.
    Senator Carper. Mr. Chairman, before Mr. Zients proceeds, I 
must leave. And normally, others do not make statements, but 
could I just make a statement for maybe a minute?
    Chairman Lieberman. Go right ahead, please.
    Senator Carper. I would just like to say how much I 
appreciated the opportunity to meet with Mr. Zients this last 
week and to have an opportunity to discuss a number of the 
priorities, some that Senator Collins has already mentioned, 
that the three of us share. We are also very much interested in 
continuing the work. The foundation has been made on improper 
payments. A lot of money, tens of billions of dollars actually 
each year, is being inappropriately spent, in many cases 
overspent. And I welcome the opportunity to talk with you about 
that and also to figure out how, when we have overpaid money, 
we can get that money back.
    Mr. Zients. Absolutely.
    Senator Carper. And we are interested in surplus property 
and what to do about it so we do not end up carrying all this 
property on our books and have to pay for the maintenance 
costs, the utility costs, the security costs for buildings and 
land we are never going to use again.
    There are a whole lot of opportunities here for us, and I 
think it is important for us to show that we can help transform 
our economy to more of a green energy economy. It is important 
that we get health care reform done. It is important that we 
raise student achievement in our schools across this country. 
It is also important that we show that we can spend money 
responsibly, and facing a budget deficit of $1.8 trillion this 
year and red ink for as far as the eye can see, we have our 
work cut out for us. And we see you and the folks that will be 
working with you very much as partners to those of us who serve 
on this Committee.
    I was pleased to have a chance to meet your wife, Mary, and 
to meet your four children, and to meet your Dad, and I would 
just say to especially your father, thank you for helping raise 
this guy and instill the values in him that lead him to this 
table here today, and special thanks to your wife and to your 
children for their willingness to share you with all of us. 
Thanks.
    Thanks, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Carper, 
for that statement.
    Mr. Zients.

 TESTIMONY OF JEFFREY D. ZIENTS \1\ TO BE DEPUTY DIRECTOR FOR 
          MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Zients. Thank you, Mr. Chairman, Ranking Member 
Collins, and Senator Carper, for the very kind comments. I am 
honored and humbled to be here today as President Obama's 
nominee for Deputy Director for Management at the Office of 
Management and Budget.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Zients appears in the Appendix on 
page 146.
---------------------------------------------------------------------------
    I am grateful to my family who is here with me today: My 
wife, Mary, of 17 years; my four children, in descending order 
of age, Sasha, Matthew, Josh, and Jonny. And my Mom and Dad, 
Debbie and Alan, are here today. I thank all of them for their 
love and their support.
    Senator Carper. If I can interrupt, I did not realize your 
Mom was here. Would you raise your hand? Nice work, Mom. 
[Laughter.]
    Mr. Zients. Mom and Dad actually raised me here in 
Washington, so I have been here for many years, and I have had 
the opportunity to watch many people who have worked in 
government and always hoped that at some point I would have the 
opportunity to serve and give back. I want to thank the 
President and OMB Director Orszag for their confidence in me, 
and I hope to help them achieve and all of you achieve one of 
the Administration's top priorities--improving the efficiency 
and effectiveness of government.
    I believe my background helps prepare me for this role. I 
have spent 20 years in the private sector as a CEO, a 
management consultant, and as an investor. For 15 of those 
years, I helped lead the Advisory Board Company and the 
Corporate Executive Board Company. Both firms are leading 
providers of best practices and benchmarking to over 5,000 
organizations, including over 400 of the Fortune 500 companies. 
They work closely with the senior management teams at these 
organizations to measure performance, increase productivity, 
and improve service quality.
    I very much recognize and appreciate that government is 
different from the private sector. I have much to learn from 
the people who have dedicated their lives to public service and 
much to learn from the many programs that operate efficiently 
and effectively and deliver good results.
    If confirmed, I hope to help spread these government best 
practices across agencies while at the same time drawing on my 
private sector experience, bringing forward models and 
approaches that may benefit government performance. I very much 
agree with both of your comments about the need to integrate 
management and budget rather than separate divisions, if you 
will, everyone wearing both hats, both a management hat and a 
budget hat, at OMB.
    As a CEO, I have always focused on three areas: Leadership, 
measurement, and a motivated workforce. I believe leadership 
starts with putting the right team together and articulating 
the right goals for the organization. Measurement means 
translating these goals into operating plans with clear 
metrics. A motivated workforce requires creating a culture to 
attract, retain, and develop the best talent. Together, I 
believe these three areas are the key to strong performance.
    I have very much enjoyed my early interactions with the 
staff and with you, and I look forward to working closely with 
Members of this Committee, others in Congress, and leaders 
across government to improve the efficiency and effectiveness 
of our government.
    Mr. Chairman and Ranking Member, I would welcome any 
comments or questions.
    Chairman Lieberman. Thank you very much. Let me start with 
the standard questions, three in number. First, is there 
anything you are aware of in your background that might present 
a conflict of interest with the duties of the office to which 
you have been nominated?
    Mr. Zients. No.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Zients. No.
    Chairman Lieberman. And, third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Zients. Yes.
    Chairman Lieberman. You are doing very well so far. 
[Laughter.]
    Let me pick up on something you said, perhaps a question 
that seems to have an obvious answer, but I would be 
interested, which is two things we often hear: One, government 
ought to operate more like a business; and, two, government is 
different from business.
    As you come into this position, if confirmed, with quite 
impressive experience in the private sector, what do you mean 
when you say that government is different from business?
    Mr. Zients. In business, there is one very clear, most 
important metric, and that is profitability. There are lots of 
other metrics that matter, including service, quality, and 
other metrics around performance. But at the end of the day, I 
think that while business is complex, there is a bottom line.
    Here, in the public service, one is balancing in government 
different metrics, depending on programs, and some of those 
metrics actually are not even program specific. They really 
need to run across programs.
    Chairman Lieberman. Give us an example. I do not mean of a 
particular program, but what are the metrics that government 
should measure itself by?
    Mr. Zients. I think delivering the services that individual 
programs or agencies are set out to deliver in a cost-effective 
and meaningful way, so metrics in the Department of Education 
are very different than metrics in DOD. Then there are issues--
homelessness being an example--where the issue does not reside 
in a single program, but instead goes across program and even 
across agency. So I think it is very important, when we think 
about metrics in government, that it is not one size fits all. 
There is no single bottom-line profit equivalent like we have 
in the private sector. And instead we have a flexible system 
that really looks at the unique purpose of a program and 
develops the outcomes-based metrics, where appropriate, to 
measure against. Some programs probably are not conducive or as 
conducive to metric-based tracking across time and also, 
therefore, require longer-term studies around effectiveness and 
efficiency.
    Chairman Lieberman. That was well said, thoughtfully said. 
Let me go on to a question about the Federal workforce. In your 
pre-hearing discussions with the Committee staff, you noted, as 
you have repeated here, that advising companies on best 
practices, and particularly improving strategies for human 
resource management, was a major focus of the two consulting 
firms that you led. Because this Committee has oversight 
responsibilities and legislative responsibilities for the 
Federal civil service, recruiting, training, and retaining a 
skilled Federal workforce are priority concerns of ours.
    So I wanted to ask you what your initial coming-through-
the-door or approaching-the-door thoughts are about ways in 
which you can help us strengthen the Federal workforce.
    Mr. Zients. Here is a similarity, I believe, with the 
private sector. Human capital is the most important component 
of improving performance, so in my private sector days, I did 
spend a lot of time on human capital strategies as a result of 
how important it was to the clients of the firm.
    My initial reaction is that there is a recruiting issue in 
that we have a large retirement bubble in the system, and at 
the same time, we have remarkably long lead times in order to 
bring a new individual into the workforce. So I have been 
struck by how long those lead times are and the need to 
decrease those.
    I think it is an important time to be doing so and that we 
have an opportunity somewhat related to the economy and also to 
a renewed or even heightened interest in public service to take 
advantage of an opportunity. But we need to make sure that we 
streamline the hiring process in order to take advantage of 
this opportunity and start doing the right kind of planning for 
the retirement bubble.
    Succession planning becomes very important, understanding 
overall the workforce needs by agency, when people are likely 
to be retiring, and how we ensure that we have the right 
succession plans in place. I think, furthermore, we do need to 
look at training programs. Training programs oftentimes in both 
the private sector and now I understand the public sector come 
under pressure as one of the first things to go in budget cuts. 
That can tend to be short-sighted, and enhancing our training 
programs at all levels throughout government I believe is an 
important priority--all of this in the context of taking a step 
back and making sure that we have an employment proposition 
that works to attract, retain, and develop talent across the 
Federal Government.
    Chairman Lieberman. Let me follow with another question 
related to personnel. There has been a trend, as you know, a 
very significant trend, toward contracting out government 
services. A lot of us are concerned that it has gone too far, 
though obviously there are cases in which it makes a lot of 
sense.
    In your pre-hearing responses to the questions, you have 
emphasized that inherently governmental functions should be 
performed by Federal employees and that agencies must have the 
internal capability to maintain control over their operations. 
I agree wholeheartedly that those are fundamental 
considerations. So I wanted to ask you this question, going 
back again to your private sector experience.
    In the private sector, what approach did you recommend to 
your clients for deciding what skills they should retain in-
house? And what, if any, different considerations do you think 
a government agency should make in deciding what work is 
appropriate for contractors and what should be kept inside?
    Mr. Zients. In the private sector, I would say there are 
two primary considerations: One, is it a core competency of the 
organization? Does the organization, the for-profit company, 
need that competency in-house in order to differentiate itself 
in the marketplace and win against the competition?
    The other consideration is: Is the function something that 
is conducive to scale? So certain things, certain activities, 
as you build scale and do more and more of it, you become much 
better at it and more efficient. Other things are less 
conducive to scale. And so if something is a scale activity and 
in an organization you are not going to achieve that scale but 
an outsourcer by collecting, or a contractor by creating their 
own scale, could do that much more efficiently, that would be 
the other consideration.
    So two considerations: First, is it a core competency to 
differentiate in the marketplace? And, second, is it something 
that if you were bundling your activities with someone else's, 
would you achieve higher quality and lower cost?
    I think those same principles do apply in government once 
we decide that something should be competed. I think, however, 
this test of inherently governmental, i.e., that all inherently 
governmental work--hiring personnel, managing contractors, 
setting policy--should all be done by Federal workers. That is 
different from the private sector, if you will, this inherently 
governmental and the link to the larger purpose of government.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I mentioned in my opening statement my concern about the 
Federal Government's failures when it comes to IT projects. 
This year alone, the Federal Government will spend more than 
$70 billion on IT projects, and yet OMB every year, through its 
tracking system, identifies billions of dollars of wasted 
spending on IT.
    What do you think OMB should do to get troubled IT 
investments back on track and to ensure that they are on track 
in the first place?
    Mr. Zients. Thank you for that question. I believe that 
this is a management issue more than a technology issue, so it 
comes down to good management, having the right people 
accountable, sharing best practices, and ensuring that the 
processes, particularly the program management processes, are 
robust and experienced people are in charge.
    There are a few efforts underway, which I think are a good 
start, led by the new Federal Chief Information Officer (CIO), 
Vivek Kundra. One is to make sure that the CIO is at the senior 
management table. I think too often we approach IT projects as 
a silo when, in fact, a large IT project has to have the senior 
team, starting with the head of the agency, at the table 
understanding the resources that are required and making the 
necessary commitment. So ensuring that the CIO is at the table 
as a senior executive is, I think, very important.
    Second, I think too often we find out about problems too 
late, when things are off track, on an annual cycle, if you 
will; whereas, an IT project needs to be managed daily, weekly, 
monthly, not annually. And there is an effort underway to 
create a dashboard, which will allow us, with transparency, to 
see where projects are, spot problems early, and get them back 
on track.
    Last, I think we need to make sure that someone is 
accountable here, and certainly the CIO and, I believe, the 
head of the agency have to be held accountable in a transparent 
way for the success of these projects.
    Senator Collins. OMB has developed a system known as the 
Program Assessment Rating Tool (PART), and it is a performance 
results system that is intended to evaluate the effectiveness 
of Federal programs. Are you familiar with PART?
    Mr. Zients. Yes, I am.
    Senator Collins. What we have found, however--and GAO has 
determined also--is despite the existence of the PART ratings, 
managers across the Federal Government do not use the 
assessments when it comes to allocating resources. So all this 
energy goes into this complex evaluation system, and then, 
frankly, no one uses it. The individual agencies do not use it 
in deciding what their budget request should be for the most 
part, and Congress does not use it either. The Appropriations 
Committees tend to discount the PART ratings.
    In the previous Administration, OMB tried to use low PART 
ratings as a justification for terminating or reducing funding 
for various programs, and I am at a loss to think of even one 
where they were successful.
    What can we do to develop a performance assessment program 
that is going to guide resource allocations and budget 
decisions in an effective way?
    Mr. Zients. Thank you. I think you hit the nail on the 
head. The test of a performance management system is: Is it 
being used to make important resource allocation, budgeting, 
and capital decisions by all stakeholders? And I think the way 
that you go down the path of achieving that goal is with a 
collaborative approach, working with the stakeholders at the 
senior-most level to understand what matters, what are the 
overall goals, how are they being translated into operating 
plans, and then what are the best handful of outcomes-based 
metrics to track progress across time; and that you have the 
flexibility in the system, going back a little bit earlier in 
the conversation, to look at problems not just by program--or 
issues or opportunities--but across agencies.
    So I am wary of anything that is one size fits all, and at 
the same time, I think the ultimate test is right where you 
started, which is: Is the system being used by senior managers, 
senior leaders, and senior stakeholders to make decisions? So, 
if confirmed, I look forward to working with the Committee and 
others in Congress and across agencies to collaboratively 
develop a system that is used to make important decisions.
    Senator Collins. I think you have identified the key issue. 
If it is a collaborative system that agencies buy into and if 
you establish performance metrics that are cross-cutting, I 
think there will be more support for using the results of the 
assessments. And I know this is an area where you have had a 
great deal of experience, and I am really pleased that you are 
going to be bringing that experience as the first Chief 
Performance Officer.
    The President has committed to making this Administration 
more transparent, and that is something that I completely 
support. And one of the best ways to do that is to expand, 
update, and improve the use of government websites.
    But if you look at the Federal websites versus the private 
sector and, in some cases, State and local websites, you will 
find that there are a lot of frustrations and that they are not 
as good as they could be. And a great example that this 
Committee has been focusing on are the websites for the 
stimulus spending.
    People are very interested in tracking that spending, of 
making sure that it is achieving the results that all of us 
hope that it will, and yet the Recovery.gov website is not 
nearly as good as a website developed by the private sector 
that I believe is Recovery.org. It is a very similar name.
    In the private sector website, you are able to track money 
down to the contractor level. With the Federal website, we are 
not able to do that effectively.
    Mr. Zients. Yes.
    Senator Collins. Why can we not get our act together when 
it comes to websites for tracking spending?
    Mr. Zients. Good question, and I totally agree with you 
that it is a high priority for this Administration, one of the 
highest priorities, to increase the transparency and thereby 
the accountability of government.
    My understanding is that there is a lot of effort right now 
being put into Recovery.gov with focus at OMB and, obviously, 
the leadership of the oversight board to working 
collaboratively, and we are headed toward, in October, launch 
of a lot more information on the website.
    I think we will see very good things in October, and I 
think as we get that out there, we have to have a continual 
process to improve and add more and more data, as you said, all 
the way through the sub-recipient level, both on the grant side 
and the contract side.
    I think the root cause problem is the legacy systems that 
we have and the fact that we have not been able, going back to 
IT management, to update a lot of our IT systems. So we have 
outdated systems. We saw this in the pressure that was on 
Grants.gov through the added dollars in the Recovery Act. So I 
think updating these systems going back to IT management and 
making sure that we have robust systems that we can draw data 
out of is very important. Recovery.gov, I think, will offer 
unprecedented transparency and will set a standard to which we 
will then move USASpending.gov and Grants.gov across time.
    I agree with your premise, though, that we are not where we 
should be in terms of the base foundation to pull the data off 
of.
    Senator Collins. In a way--just one final comment, if the 
Chairman will indulge me.
    Chairman Lieberman. Sure. Go ahead.
    Senator Collins. In a way, you have identified my 
frustration, though. You are saying by October there should be 
a significant upgrade, and yet here we have this private sector 
website that is tracking the money more effectively right now, 
and presumably it was a lot harder for the private company to 
identify the funding streams and track them. They do not have 
these companies, these State and local governments reporting 
the way the Federal Government does.
    So it is frustrating to me to hear that it is going to take 
that many more months for us to try to catch up with what the 
private sector has already done. That indicates a problem.
    Mr. Zients. I agree.
    Senator Collins. Fortunately, that is not your watch.
    Mr. Zients. We will hopefully leap-frog in October, but I 
share your concern.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. Senator Akaka, 
welcome.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thanks very much, Mr. Chairman. I do want to 
add my welcome to Mr. Zients and, of course, to your lovely 
family and your children and friends and even your supporters 
who are here at this hearing.
    As you know, the amount of acquisition spending by the 
Federal Government has grown dramatically over the past decade 
while the size and expertise of the Federal acquisition 
workforce has not kept pace, and that has been a huge problem. 
This has affected agencies' ability to acquire and oversee 
mission-critical contracts and has cost taxpayers through 
increased waste, fraud, and abuse.
    If confirmed, what role will you play in identifying and 
addressing the needs of the Federal acquisition workforce?
    Mr. Zients. Thank you. There has been a doubling, as you 
said, across the last 8 years in contracting. At the same time, 
I believe the total size of the Federal acquisition workforce 
has actually stayed the same size or even decreased a little 
bit. So there is clearly a need to do comprehensive workforce 
planning around the acquisition workforce because it also is 
subject to something we talked about earlier, Senator, which is 
the pending retirement wave. It will hit that workforce also. 
So we have the need to hire a lot of new people and the need to 
train and ensure that we are increasing the size and the 
capabilities of that workforce as we ask them to take on more 
and more complex contracts.
    So I think it is an area that needs a lot of attention. 
Working closely with the General Services Administration, DOD, 
the Federal Acquisition Institute, and the Defense Acquisition 
University, we need to coordinate those efforts and work with 
you and others on the Committee to ensure that we get ahead of 
the problem. I think we are behind it right now. So we need to 
catch up and then get ahead of the problem and have an 
acquisition workforce that is the right size and has the right 
set of capabilities to oversee our contracting.
    Senator Akaka. Mr. Zients, you have mentioned a desire to 
find the right mix of Federal and private contractor employees 
for performing government services. What steps will you take 
and whom do you expect to coordinate to achieve this?
    Mr. Zients. President Obama in his March 4, 2009, memo on 
contracting talked about a blurring of the line around 
inherently governmental, and I think it is very important that 
we clarify what is inherently governmental and ensure that only 
Federal workers are performing these functions.
    Second, I think it is important that we have the critical 
capabilities at each agency to do their work, to maintain 
control over their operations. So there are some areas, 
technical areas, professional service areas, where it might be 
right to have a mix of Federal workers and contractors, but at 
all times the agency has to maintain a core set of capabilities 
to maintain control over their operations.
    So once we clear through, if you will, those two standards, 
there could be work that is eligible for a competitive process. 
I think it is very important that we have the acquisition 
workforce, per your earlier question, in place to oversee that 
type of contracting, if indeed we decide to do it, and that we 
have a fair and transparent and economically based 
decisionmaking process where Federal employees are given a fair 
choice to compete.
    Senator Akaka. There are concerns also from Federal 
employees as well. In particular, I would mention the unions. 
Like you, I believe government transparency and accountability 
are essential in all levels of management. However, in recent 
initiatives intended to hold Federal employees more accountable 
for their performance, there has been significant concern over 
fairness and consistency in evaluations.
    What are your views on crafting performance management 
systems that can be implemented fairly, consistently, and 
transparently enough that Federal employees and managers alike 
will embrace them?
    Mr. Zients. I think that performance appraisal systems are 
critical. They are the basis for a lot of the performance 
efforts that we have been discussing, writ large. I think that 
we need to make sure that anything we do respects and is 
consistent with the merit-based system and protects employees 
from any prohibited personnel practices. So I believe that we 
all are supportive of transparency; at the same time, we need 
to balance that with other considerations when we are talking 
about our Federal employees.
    Senator Akaka. One concern that we have had over a period 
of time is that of security clearances, and this Committee has 
held hearings on that issue. Since 2004, Mr. Zients, our 
Subcommittee on Oversight of Government Management, the Federal 
Workforce, and the District of Columbia, under both the 
leadership of myself and Senator Voinovich, has worked closely 
with the Office of Management and Budget in reforming the 
current security clearance process, which remains on the 
Government Accountability Office's high-risk list. Until 
recently, the backlog for obtaining a security clearance was 
unacceptably long. While some progress has been made, I am 
concerned that the new Administration may not yet be focused on 
moving forward with security clearance reforms.
    Will you commit to have your team work with our 
Subcommittee on this important issue?
    Mr. Zients. I agree very much with the issue. There has 
been some progress, as you have noted, under your leadership 
and others. At the same time, we are not where we need to be, 
and OMB plays a role here with the Office of Personnel 
Management, DOD, and the Office of the Director of National 
Intelligence. And I very much commit that, if confirmed, it 
will be a very important priority for me to review the work to 
date and to make sure that we make continued progress and work 
closely with you.
    Senator Akaka. Well, thank you very much. I want to wish 
your lovely family well, and you also. Thank you very much, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Mr. Zients, 
thanks very much. Your answers have been excellent. You are 
obviously well prepared for this position. The Administration 
and all of us need you there as quickly as possible.
    So, without objection, we are going to keep the record of 
the hearing open until noon tomorrow for the submission of 
additional questions or statements, and then we will move as 
quickly as we can, assuming nothing unexpected occurs, to 
confirm you by the Committee and send you out to the full 
Senate.
    Do you have anything else you would like to say?
    Mr. Zients. No. Thank you. I really appreciate it.
    Chairman Lieberman. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 11:44 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


        PREPARED STATEMENT OF SENATOR LIEBERMAN FOR TARA O'TOOLE
    Good morning. Today this Committee will consider the nominations of 
Dr. Tara O'Toole to be Undersecretary of Science and Technology, at the 
Department of Homeland Security (DHS), and Jeffrey Zients to be the 
Director for Management at the Office of Management and Budget (OPM).
    We will begin with Dr. O'Toole, who has appeared previously before 
our Committee as a witness and who I'm delighted to welcome back as the 
nominee for this important position.
    The Science and Technology Directorate is charged with managing our 
Nation's investments in homeland security research and development 
projects.
    It is hard to think of a threat to America's homeland security that 
cannot be better defended against with an innovative application of 
science and technology.
    S&T had a difficult launch and in its early years struggled to 
clarify and execute its primary mission. As a result, the FY 2007 
Appropriations Act reduced the Directorate's $1.4 billion budget by 40 
percent.
    In wake of this dose of tough-love, former Undersecretary Cohen 
resolved to build a leaner and more tightly-managed organization that 
focused on serving its primary customers--DHS agencies--and being 
transparent with Congress.
    Undersecretary Cohen implemented internal controls to monitor S&T 
finances and track the progress of S&T investments. He established a 
structured strategic planning process that is designed to produce 
specific objectives and annual performance measures.
    In my view, the recent increases in the Directorate's budget 
indicates that S&T's career staff has succeeded in regaining the trust 
of the oversight and appropriations committees in the House and Senate.
    But a number of complex challenges remain, and we would look to 
you, Dr. O'Toole, for the leadership to continue to build and improve 
this agency that is vital to DHS's overall mission to protect our 
homeland.
    These challenges include expanding investments in innovative R&D 
for homeland security and insuring the reliability of the testing and 
evaluation that DHS relies on for large acquisition programs.
    You also must strengthen relationships between S&T and agencies 
within DHS. Dr. O'Toole brings a wealth of experience that will serve 
her well in this new job.
    After practicing medicine in Baltimore for several years, Dr. 
O'Toole earned a Masters in Public Health from Johns Hopkins 
University, spent 5 years as a senior analyst and project director with 
the Congressional Office of Technology Assessment and, from 1993 to 
1997, served as the Assistant Secretary for Environment, Safety and 
Health at the Department of Energy.
    From 1999 to 2003, she managed the Johns Hopkins Center for 
Civilian Biodefense Strategies. For the last 6 years, she has served as 
the Director and Chief Executive Officer of the Center for Biosecurity 
at the University of Pittsburgh.
    Today she is best known as a nationally recognized expert on 
biodefense and the actions what we must take to detect, deter and react 
to either a biological terrorist attack or a ruinous pandemic.
    An important measure of her fitness for this post is the respect 
she has garnered in the scientific community and across the U.S. 
Government.
    A former chair of the board of the American Federation of American 
Scientist, she has participated in major studies or advisory panels at 
the request of the National Science Foundation, the Department of 
Defense, the Department of Health and Human Services, and the 
Department of Homeland Security.
    I believe her nomination is an inspired choice.
                               __________
         PREPARED STATEMENT OF SENATOR COLLINS FOR TARA O'TOOLE
    I join the Chairman in welcoming Tara O'Toole, the nominee to head 
the Science and Technology Directorate at the Department of Homeland 
Security.
    Dr. O'Toole has had an extensive medical, public health, and 
biodefense career and currently serves as CEO and director of the 
Center for Biosecurity at the University of Pittsburgh Medical Center 
and as a professor of medicine and of public health at the University 
of Pittsburgh. She was one of the original members of the Johns Hopkins 
Center for Civilian Biodefense Strategies and served as its director 
from 2001 to 2003.
    When the Department of Homeland Security was established, Congress 
recognized the important role that technology must play in securing our 
Nation and created a Science and Technology Directorate to undertake 
research and development activities. Today, the Department is 
developing technologies on a variety of fronts, including biological, 
chemical and explosives detection, communications interoperability, and 
passenger and cargo screening.
    Technological advances at the ports of entry are already helping to 
identify people using fraudulent travel documents. This technology 
allows the Department to better perform its mission of protecting the 
American people while still facilitating the legitimate flow of people 
and commerce--letting our friends in, while keeping our enemies out.
    The Department's relationship with the University of Maine and 
other research universities is helping to improve our homeland 
security. An example of the great promise of advanced technology is the 
composite-material cargo-container prototype under development at the 
University of Maine. A composite shipping container with embedded 
sensors could improve the security and integrity of the supply chain 
while offering shippers a lighter and longer-lasting alternative to 
traditional steel containers.
    Research and development of new technologies at the Department 
carry an annual multi-billion dollar price tag. To ensure that these 
dollars are spent wisely, the Science and Technology Directorate must 
rigorously test and evaluate technologies before procurement decisions 
are made. Better engagement by the Directorate's testing and evaluation 
office in Department acquisition programs could help avoid problems 
such as those experienced in the troubled SBInet program.
    The next Under Secretary for Science and Technology will also need 
to align DHS research and development priorities with the greatest 
security vulnerabilities that our Nation faces and ensure close 
coordination with DHS operational components and other Federal, State, 
and local partners. I look forward to hearing how Dr. O'Toole would 
address these challenges if confirmed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       PREPARED STATEMENT OF SENATOR LIEBERMAN FOR JEFFREY ZIENTS
    And now we will consider President Obama's nomination of Jeffrey 
Zients to be Deputy Director for the Office of Management and Budget.
    Since its creation, a common criticism of OMB is that its 
leadership, no matter what party is in charge, too often has focused on 
the ``B'' at the expense of the ``M''--on budget as opposed to 
management. That should not be the case. The two go hand in hand and if 
a program is not doing well with the ``M'', it is likely to have 
problems with the ``B'' as well and that means the taxpayers are not 
getting their money's worth.
    I'm pleased that President Obama has made the drive toward 
management excellence a top priority across the government and has 
stated that the Deputy Director for Management at OMB will also serve 
as the first ``Chief Performance Officer'' of the Federal Government.
    Mr. Zients will have oversight of four statutory offices with far-
reaching mandates: The Office of Information and Regulatory Affairs; 
the Office of Federal Procurement Policy; the Office of E-Government 
and Information Technology; and the Office of Federal Financial 
Management.
    I would like to take a moment to outline just a few of the 
challenges I believe Mr. Zients will face if confirmed.
    In the area of performance metrics, the ratings system created by 
the previous Administration--the Program Assessment Rating Tool 
(PART)--was viewed skeptically by many as a biased system that 
generated poor ratings for programs that the Administration wanted to 
eliminate for ideological reasons.
    I hope, Mr. Zients, that you can help create objective performance 
rating metrics for programs, and one that takes into account that a 
``one-size-fits-all'' approach is inappropriate given the diversity of 
government programs.
    Improving contracting practices is another priority for the 
President, and rightfully so, as total spending on goods and services 
has skyrocketed from $189 billion in 1999 to $532 billion in 2008.
    Another concern is properly managing the Information Technology 
investments of the Federal Government--estimated to be over $70 billion 
in this fiscal year. We must be assured these funds are spent 
effectively while also meeting the President's goals of using 
technology to make the government more transparent, participatory, and 
collaborative.
    In a related concern, OMB will continue to play a key role--along 
with DHS--in protecting our Federal networks against the malicious 
actors that seek to do us harm. In recent years this has been a real 
challenge.
    And finally, I'd like to mention how important transparency 
initiatives can be to improving accountability in government programs. 
President Obama is passionate about this issue as well.
    But many current efforts to provide data to the public on Federal 
spending, including USAspending.gov, have fallen short of original 
expectations and now the Recovery Accountability and Transparency Board 
is grappling with how to provide the public comprehensive information 
on stimulus spending.
    I'm optimistic that, with strong leadership, we'll be able to solve 
these problems so the public can track spending and provide their own 
oversight if they spot wasteful spending.
    Mr. Zients has 20 years of business experience as a CEO, management 
consultant, and entrepreneur. He has served as CEO and Chairman of The 
Advisory Board Company and as Chairman of the Corporate Executive 
Board--two firms that are leading providers of performance benchmarking 
and best practices across a wide range of industries. He has spent most 
of his career devising ways to improve governance, organization, 
management, efficiencies, financial systems of companies, and now we 
will look to him to bring those best practices to government agencies.
    So again, welcome Mr. Zients. I look forward to your statement and 
your answers to our questions.
                               __________
        PREPARED STATEMENT OF SENATOR COLLINS FOR JEFFREY ZIENTS
    For our second panel, the Committee welcomes Jeffrey Zients, 
President Obama's nominee to serve as the next Deputy Director for 
Management at the Office of Management and Budget. If confirmed, Mr. 
Zients will also serve as the government's first Chief Performance 
Officer.
    Although OMB is better known for its budget responsibilities, it 
has a two-pronged mission. In addition to overseeing the preparation 
and implementation of the Federal budget, OMB oversees Federal 
procurement, financial management, information technology, and 
regulatory policies across the Executive Branch.
    The management challenges that OMB faces are extremely important. 
Effective management can help to ensure that agencies are carrying out 
their responsibilities in the most cost-effective manner. Good 
management can save tax dollars and lead to better results. A major OMB 
responsibility is the oversight of approximately $71 billion in 
spending on information technology investments. It is unacceptable that 
Federal agencies have identified approximately 450 IT projects, 
totaling more than $26 billion for fiscal year 2009, as poorly planned, 
poorly performing, or both.
    Senator Carper and I have introduced a bill, which this Committee 
reported favorably, that would improve agency performance and oversight 
of Federal IT projects. I look forward to hearing how Mr. Zients would 
work to prevent future cost, schedule, and performance problems.
    I also look forward to hearing Mr. Zients's views on how OMB can 
continue to provide effective oversight and implementation of Recovery 
Act spending.
    Mr. Zients comes before the Committee with 20 years of business 
experience as a CEO, management consultant, and entrepreneur. He will 
need to call on all this experience if he is to serve effectively as 
the Deputy Director for OMB and Chief Performance Officer.
                               __________
        PREPARED STATEMENT OF SENATOR BENNET FOR JEFFREY ZIENTS
    Mr. Chairman, Senator Collins, thank you for giving me the 
opportunity to introduce Jeff Zients to serve as the Deputy Director 
for Management at the OMB. He will also serve as our Nation's first-
ever Chief Performance Officer. I'd like to take this opportunity to 
welcome Jeff and his family to this hearing.
    If confirmed, Jeff will coordinate the President's efforts to make 
our government more efficient and accountable by identifying wasteful 
spending and eliminating initiatives that do not provide sufficient 
benefit to the American taxpayer for the amount we are investing in 
them. He'll also work to improve how we measure the effectiveness of 
government programs.
    It won't be easy. Just the sheer size and complexity of the Federal 
Government and the entrenched interests that often fight to protect 
certain programs--make this kind of work treacherous and too often 
thankless. But I commend the President for prioritizing better 
governance and I fully agree that somebody needs to be tasked with 
performing this role.
    Given the enormity of this task, the President could not have found 
someone better suited for the job than Jeff Zients. As an expert in 
financial management and business strategy, Jeff has the intellect, 
creativity and tenacity to examine complex problems, implement 
solutions, and produce real results for the American people. As my 
friend for nearly 30 years, I know he has the ability to exercise sound 
judgment and the character and integrity to do what's right.
    In his mid-twenties, Jeff joined the Advisory Board where he worked 
closely with America's top companies to become more innovative and 
efficient. Within 3 years, he became a partner in the company. He also 
helped create the Corporate Executive Board, which assists companies 
across various industries in financial management and business re-
engineering. He played an instrumental role in taking both of these 
companies public, all the while creating hundreds of jobs in the 
Washington, D.C. area.
    Jeff currently serves as the Managing Partner of Portfolio Logic, 
an investment firm that he founded several years ago. He is also the 
Chairman of Pediatric Services of America, the Nation's largest 
provider of pediatric nurse care. Outside of the corporate world, Jeff 
has worked to create better opportunities for young adults throughout 
Washington, D.C. and Baltimore. He established and currently oversees a 
non-profit organization that works with local companies to provide paid 
internships, mentoring opportunities, and job training initiatives.
    As we all know, Jeff will be joining the President's team during 
the worst economic crisis in generations. At the same time, our 
deficits and long term debt are on an unsustainable course. If we want 
to lay the framework for long-term economic growth, we need to ensure 
that every penny of Federal spending is necessary and targeted. Jeff's 
years of experience in financial management and his ability to think 
``outside of the box'' will be instrumental to the President's efforts 
to make our government more accountable and efficient. His private-
sector business savvy will provide the perfect lens through which to 
examine the effectiveness of many public-sector initiatives. By making 
our Federal agencies more efficient and accountable, Jeff will play an 
important role in helping restore the American people's faith in our 
government.
    I look forward to working with my old friend as he begins this 
important job. Mr. Chairman, I gladly introduce and recommend Jeff 
Zeints to the Committee for this new and important role.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
